     Management Advisory Report



Single Audit of the Commonwealth
 of Puerto Rico Department of the
 Family for the Fiscal Year Ended
           June 30, 2013




       A-77-14-00014 | July 2014
Single Audit of the Commonwealth of Puerto Rico Department
of the Family for the Fiscal Year Ended June 30, 2013
A-77-14-00014
July 2014                                                                  Office of Audit Report Summary

Objective                                  Findings

To report internal control weaknesses,     The single audit reported that PRDF’s:
noncompliance issues, and
unallowable costs identified in the           accounting policies, procedures, and financial reporting
single audit to the Social Security            practices were deficient;
Administration (SSA) for resolution
action.                                       property and equipment system was not effective;

Background                                    personnel files did not contain documents required by the Drug-
                                               Free Workplace Act;
Valdes, Garcia, Marin & Martinez,
LLP conducted the single audit of the         verifications of the required match of consultative examination
Puerto Rico Department of the Family.          (CE) providers’ medical licenses with the List of Excluded
SSA is responsible for resolving single        Individuals and Entities (LEIE) were not documented; and
audit findings related to its Disability
                                              CE provider files did not contain required documentation of CE
programs. The Puerto Rico
                                               provider qualification verifications.
Department of the Family (PRDF) is
the Puerto Rico Disability                 Recommendations
Determination Program’s (DDP)
parent agency.                             We recommend that SSA:

                                           1. Ensure PRDF established appropriate accounting policies,
                                              procedures, and reporting practices.

                                           2. Verify that PRDF established appropriate inventory procedures.

                                           3. Ensure personnel files contain all documents required by the
                                              Drug-Free Workplace Act.

                                           4. Verify that the DDP is performing and documenting the match
                                              of CE providers’ medical licenses with the LEIE.

                                           5. Ensure PRDF implemented appropriate procedures to verify CE
                                              provider qualifications.
MEMORANDUM
Date:      July 23, 2014                                                           Refer To:

To:        Gary S. Hatcher
           Senior Advisor
           Records Management and Audit Liaison Staff
From:      Inspector General
Subject:   Single Audit of the Commonwealth of Puerto Rico Department of the Family for the Fiscal Year
           Ended June 30, 2013 (A-77-14-00014)

           This report presents the Social Security Administration’s (SSA) portion of the single audit of the
           Puerto Rico Department of the Family for the Fiscal Year ended June 30, 2013. 1 Our objective
           was to report internal control weaknesses, noncompliance issues, and unallowable costs
           identified in the single audit to SSA for resolution action.

           The audit firm of Valdes, Garcia, Marin & Martinez, LLP performed the audit. We have not
           received the results of the desk review conducted by the U.S. Department of Agriculture
           (USDA). We will notify you if USDA determines the audit did not meet Federal requirements.
           In reporting the results of the single audit, we rely entirely on the internal control and compliance
           work performed by Valdes, Garcia, Marin & Martinez, LLP and the review performed by
           USDA. We conducted our review in accordance with the Council of the Inspectors General on
           Integrity and Efficiency’s Quality Standards for Inspection and Evaluation.

           For single audit purposes, the Office of Management and Budget (OMB) assigns Federal
           programs a Catalog of Federal Domestic Assistance (CFDA) number. SSA’s Disability
           Insurance (DI) and Supplemental Security Income programs are identified by CFDA number 96.
           SSA is responsible for resolving single audit findings reported under this CFDA number.

           The Puerto Rico Disability Determination Program (DDP) performs disability determinations
           under SSA’s DI program in accordance with Federal regulations. The DDP is reimbursed for
           100 percent of allowable costs. The Puerto Rico Department of the Family (PRDF) is the Puerto
           Rico DDP’s parent agency.




           1
            Valdes, Garcia, Marin & Martinez, LLP, Commonwealth of Puerto Rico Department of the Family Independent
           Auditors’ Report and Statement of Cash Receipts and Disbursements for the Fiscal Year Ended June 30, 2013.
Page 2 - Gary S. Hatcher

The single audit reported that PRDF’s:

      Accounting policies, procedures, and financial reporting practices were deficient. For
       example, PRDF had a lack of self-balancing accounts and procedures for reconciling
       financial transactions. PRDF also had inappropriate and incomplete monthly and year-end
       cut-off and closing procedures. 2 The corrective action plan identifies several improvements
       PRDF made in this area, including establishing procedures to ensure all expenses and
       revenue items are recorded in the accounting system.

      Property and equipment system was not effective. Specifically, PRDF could not provide
       documentation that required physical inventories were performed. 3 The corrective action
       plan indicates a physical inventory will be taken and inventory procedures will be
       strengthened.

      Personnel files did not contain documents required by the Drug-Free Workplace Act. 4 The
       corrective action plan indicates that the Human Resources Division now periodically reviews
       the employee files to ensure retention of all required documentation.

      Verifications of the required match of consultative examination (CE) providers medical
       licenses with the Department of Health and Human Services, Office of Inspector General,
       List of Excluded Individuals and Entities (LEIE) was not documented. 5 The corrective
       action plan indicates that currently, the LEIE verification documentation is printed and
       retained.

      CE provider files did not contain required documentation of CE provider qualification
       verifications. 6 The corrective action plan indicates a review of all CE providers is being
       conducted to ensure proper credentials are obtained.

We recommend that SSA:

1. Ensure PRDF established appropriate accounting policies, procedures, and reporting
   practices.

2. Verify that PRDF established appropriate inventory procedures.

3. Ensure personnel files contain all documents required by the Drug-Free Workplace Act.




2
    Id. at finding 2013-01.
3
    Id. at finding 2013-02.
4
    Id. at finding 2013-24.
5
    Id. at finding 2013-25.
6
    Id. at finding 2013-26.
Page 3 - Gary S. Hatcher

4. Verify that the DDP is performing and documenting the match of CE providers’ medical
   licenses with the LEIE.

5. Ensure PRDF implemented appropriate procedures to verify CE provider qualifications.

In addition, PRDF did not submit the single audit report to OMB’s Federal Audit Clearinghouse
within 9 months after the fiscal year-end. 7 The single audit identified multiple Federal programs,
including SSA, responsible for resolving this finding. The USDA, as the cognizant agency, is
responsible for ensuring that the single audit is properly submitted when due. Therefore, we are
bringing this matter to your attention, but we are not making a recommendation.

Please send copies of the final Audit Clearance Document to Shannon Agee. If you have
questions, contact Shannon Agee at (877) 405-7694, extension 18802
or Shannon.Agee@ssa.gov.




                                               Patrick P. O’Carroll, Jr.

Attachment

cc:
Lynn Bernstein




7
    Id. at finding 2013-27.
                                           MISSION
By conducting independent and objective audits, evaluations, and investigations, the Office of
the Inspector General (OIG) inspires public confidence in the integrity and security of the Social
Security Administration’s (SSA) programs and operations and protects them against fraud,
waste, and abuse. We provide timely, useful, and reliable information and advice to
Administration officials, Congress, and the public.


                                   CONNECT WITH US
The OIG Website (http://oig.ssa.gov/) gives you access to a wealth of information about OIG.
On our Website, you can report fraud as well as find the following.
   •   OIG news                                  In addition, we provide these avenues of
   •   audit reports
                                                 communication through our social media
                                                 channels.
   •   investigative summaries
   •   Semiannual Reports to Congress                Watch us on YouTube
   •   fraud advisories                              Like us on Facebook
   •   press releases
                                                     Follow us on Twitter
   •   congressional testimony
   •   an interactive blog, “Beyond The              Subscribe to our RSS feeds or email updates
       Numbers” where we welcome your
       comments


                          OBTAIN COPIES OF AUDIT REPORTS
To obtain copies of our reports, visit our Website at http://oig.ssa.gov/audits-and-
investigations/audit-reports/all. For notification of newly released reports, sign up for e-updates
at http://oig.ssa.gov/e-updates.


                          REPORT FRAUD, WASTE, AND ABUSE
To report fraud, waste, and abuse, contact the Office of the Inspector General via
   Website:        http://oig.ssa.gov/report-fraud-waste-or-abuse
   Mail:           Social Security Fraud Hotline
                   P.O. Box 17785
                   Baltimore, Maryland 21235
   FAX:            410-597-0118
   Telephone:      1-800-269-0271 from 10:00 a.m. to 4:00 p.m. Eastern Standard Time
   TTY:            1-866-501-2101 for the deaf or hard of hearing
